<html>
<title> - NEW STRATEGIES FOR COMBATING VIOLENT CRIME: DRAWING LESSONS FROM RECENT EXPERIENCE</title>
<body><pre>[Senate Hearing 110-563]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-563
 
NEW STRATEGIES FOR COMBATING VIOLENT CRIME: DRAWING LESSONS FROM RECENT 
                               EXPERIENCE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

                          Serial No. J-110-116

                               __________

         Printed for the use of the Committee on the Judiciary


                     U.S. GOVERNMENT PRINTING OFFICE
44-972 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware, prepared statement...................................    29
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    52
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    64
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     3
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     4

                               WITNESSES

Blumstein, Alfred, Professor, H. John Heinz III School of Public 
  Policy and Management, Carnegie Mellon University, Pittsburgh, 
  Pennsylvania...................................................     6
Esserman, Dean M., Colonel, Chief of Police, Providence Police 
  Department, Providence, Rhode Island...........................    11
Kelling, George L., Professor, School of Criminal Justice, 
  Rutgers Newark University......................................    16
Summey, James, Reverend, English Road Baptist Church, High Point, 
  North Carolina.................................................    14
Travis, Jeremy, President, John Jay College of Criminal Justice, 
  City University of New York, New York, New York................     8

                       SUBMISSIONS FOR THE RECORD

Blumstein, Alfred, Professor, H. John Heinz III School of Public 
  Policy and Management, Carnegie Mellon University, Pittsburgh, 
  Pennsylvania, statement........................................    31
Esserman, Dean M., Colonel, Chief of Police, Providence Police 
  Department, Providence, Rhode Island, statement and attachments    38
Kelling, George L., Professor, School of Criminal Justice, 
  Rutgers Newark University, statement...........................    54
Rosenfeld, Richard, Curators Professor and Director of the Ph.D. 
  Program, and Brian Oliver, Ph.D. Student, Department of 
  Criminology and Criminal Justice, University of Missouri-St. 
  Louis, St. Louis, Missouri, joint statement....................    66
Summey, James, Reverend, English Road Baptist Church, High Point, 
  North Carolina, statement......................................    90
Travis, Jeremy, President, John Jay College of Criminal Justice, 
  City University of New York, New York, New York, statement and 
  chart..........................................................    94


NEW STRATEGIES FOR COMBATING VIOLENT CRIME: DRAWING LESSONS FROM RECENT 
                               EXPERIENCE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, and Specter.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. The Committee will come to 
order.
    Today the Committee turns to the critical issue of violent 
crime. While we saw a great reduction in violent crime in the 
1990s, that seems to have suddenly stalled.
    The rate of homicide per person in the United States is 
nearly six times that of Germany, four times greater than Great 
Britain or Canada--and I watch that in Canada because my home 
is less than an hour's drive from the Canadian border. Since 
2000, the number of murders and armed robberies has remained 
nearly unchanged across the Nation.
    But the statistics do not tell the whole story. Nationwide 
trends no longer effectively explain what is truly happened in 
our cities and towns. Too many communities have seen a 
resurgence of violent crimes, and one such community is 
Rutland, Vermont. Senator Specter and I went up last spring to 
hold a hearing there to study that city's effective responses 
to a disturbing spike in violent crime, and picked Rutland 
because we are just not used to violent crime in Vermont. And 
there we had had a sudden spike of it. I again want to publicly 
thank Senator Specter for taking the time to come up to 
Rutland.
    Now, some communities have seen declines in violent crimes 
since 2000, and some major cities, like New York, that have the 
resources to try out new strategies, they are reporting 
historically low crime rates. I want to look behind the 
national statistics and trends. I want to know about new 
community-based strategies that have proven to be more 
substantial than ever, or they could well lead to another era 
of substantial crime reduction.
    I know Senator Biden, the former Chairman of this 
Committee, he knows these issues very well. He has been at the 
forefront of these crime-fighting issues, with his leadership 
in writing and passing legislation to create and fund the COPS 
program and other innovative programs saw a drop in violent 
crime we saw through the 1990s. And I appreciate Senator 
Specter calling him a leader on crime control. He has long 
supported Senator Biden's efforts.
    Of course, we are fortunate in this Committee to have 
Senator Specter with his own experience as a prosecutor and 
Senator Whitehouse with his experience as a prosecutor.
    Violent crime statistics are a new disturbing dilemma. The 
rates of incarceration over the past 8 years has spiked to 
levels once thought unimaginable. We imprison more than 2.3 
million adults in America. That is more than any other Nation 
in the world. For the first time ever, 1 every 100 adult men in 
America is in prison or in jail. The rates are even more 
startling for certain minorities. For Hispanics, 1 out of every 
36 men is locked up; African-Americans, 1 out of every 15. 
Black men between the ages of 20 and 34, it is 1 out of every 
9. And if simply locking people up was the answer, that would 
be very simple. But we lock them up and crime does not drop. In 
fact, in places where we have locked up the most offenders, 
crime continues to cripple our communities, particularly in 
poor and minority neighborhoods.
    I have always felt when I was prosecutor that this had to 
be something all of us had to get a handle on. But most veteran 
police chiefs will tell you, as Los Angeles Police Chief Bill 
Bratton told this Committee earlier this year, you just cannot 
arrest your way out of a problem. We can have real success in 
combating violent crimes if we focus on our communities. 
Supported by the COPS program, during the last administration 
we saw community policing do a great deal. And new community 
initiatives have focused on combating youth violence. I think 
of High Point, North Carolina, where the local police had all 
but written off the West End. For decades, it was dominated by 
drugs and prostitution, but in 2002, they decided on a new 
approach building on earlier models proven successful in the 
Boston Cease Fire initiative. And I remember Senator Kennedy, a 
valued and the most senior member of this Committee, telling us 
over and over again to look at what they are doing with Cease 
Fire and how effective it was. Instead of just doing more 
sweeps and arresting the usual suspects, police met with local 
community leaders, clergy, service providers, united all the 
parts of the community to attack the problem together.
    One of our witnesses, Reverend Summey, who is here, is 
going to tell us the results are clear. Within weeks, drug 
dealers and prostitutes were gone from the street. Crime fell 
by more than 50 percent. Five years later, it is still down.
    Now, it involved more than just the police making arrests. 
We cannot make the mistake of thinking this is simply a problem 
for the police. The police will do their job. But it needs the 
community, it needs the business community, families, 
educators, religious leaders. All have got to work on doing 
this and have a real spirit of unity.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    So I am not telling these witnesses anything they do not 
know, and I notice we have been joined by Congressman Kennedy 
of Rhode Island. He has a wonderful first name, Congressman 
Patrick Kennedy.
    [Laughter.]
    Chairman Leahy. I have known and admired him for so many 
years. I am delighted to have him here. And I see, Colonel, you 
know him, and I assume you know him in your professional 
capacity, not because he has been one of those miscreants you 
might have back in Rhode Island.
    [Laughter.]
    Chairman Leahy. Senator Specter?

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Well, thank you, Mr. Chairman. I thank you 
for convening this hearing on this very important subject with 
a very distinguished array of witnesses who are here today.
    I have long believed that we could cut violent crime very 
substantially if we did a few things. One is to incarcerate 
career criminals for life, and the second facet is to have 
realistic rehabilitation for those who go to jail but who are 
going to be released.
    When I was district attorney of Philadelphia, I found the 
recidivists were the big problem, the robbers and the burglars. 
And one of the first bills I introduced, which ultimately 
became law after having help from Senator Thurmond and Senator 
Leahy and others, was the armed career criminal bill, which 
provides the life sentence in the Federal system. It is 15 
years to life for criminals who commit three major offenses.
    The issue of realistic rehabilitation, we all know and 
understand that it takes tremendous resources to have a 
starting point of detoxification, since we know that 70 percent 
of those arrested have either a drug or alcohol problem, and 
then training, education, literacy training to start with, and 
then education, so they do not go through the revolving door, 
the recidivist problem. And we know that they are going to be 
released unless they are career criminals and have life 
sentences. But that takes resources, which we have never been 
willing to commit.
    The cost of crime is really incalculable. Some people put 
it at $500 billion, or half a trillion dollars. I frankly think 
that is low. And if it is accurate, it does not cover the pain 
and suffering or loss of life or the terror which grips cities 
and communities where awaiting some strange sound at night 
worrying about burglars or where you walk down the streets even 
in the biggest cities with very substantial police control.
    More recently, a number of us have banded together to try 
to get mentoring. We find that there is a resurgence of crime 
problems from young people who come from one-parent families, 
and even then the mother is working and there is no guidance. 
And if we can provide a surrogate parent, something could be 
done. And we have appropriated very substantial sums of money 
to try to promote the mentoring issue. So these are issues 
which we really need to tackle in a much more determined way 
than we have so far.
    I regret that I will not be able to stay to hear the 
witnesses, but I have staff here and I will review the 
transcript. I want to pay special note to Dr. Alfred Blumstein, 
a 40-year veteran of criminal law expertise from Carnegie 
Mellon, and the other very distinguished witnesses I know have 
a great deal to contribute on this subject.
    As you may know, I have multiple obligations. Right now the 
Defense Appropriations Subcommittee is meeting. Senator Leahy 
is a member of that Committee as well, so we will split up, 
Patrick, and you cover the important stuff, and I will go down 
and try to make a contribution on Defense Appropriations.
    Thank you very much.
    Chairman Leahy. Thank you very much. I appreciate it. It is 
a time with many conflicts. Fortunately, we have the staffs of 
all the Senators, appropriate Senators here.
    Senator Specter. Patrick, one addendum to your comment 
about Rutland. I think that hearing in Rutland that this 
Committee had was a very important hearing because it focused 
on small communities. And too often we think of crime as a big-
city problem. And it is nice to have the Chairman of the 
Judiciary Committee in your State because he can give a little 
extra attention. I used to do that for Pennsylvania. Maybe I 
will again someday.
    Chairman Leahy. I will come join you.
    Senator Specter. Well, you already have, Pat. But that was 
a very important hearing, and you should have seen the turnout. 
If we had a proportionate turnout, we would have to put this in 
the basketball arena, but the place was mobbed. People were 
really interested to see what the U.S. Senate Judiciary 
Committee was going to do. And it was symbolic of the terrible 
problem which grips the whole country, not just the big cities.
    Thank you again.
    Chairman Leahy. Thank you. I appreciate that. Again, as we 
know, especially in small towns, we are used to not locking our 
doors. We are used to not worrying about things. And when 
violence hits and people get shot and knifed and killed, it is 
doubly shocking.
    Senator Whitehouse, I know that you have a constituent--
well, now you have two constituents here, but did you want to 
say something before we begin?

 STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Yes, Mr. Chairman. I would be very, 
very proud to have the chance to introduce and say a few words 
about Colonel Esserman, who is the Chief of Police of our 
capital city of Providence, and I suspect that his presence 
here is what has attracted my colleague and the senior member 
of our delegation Patrick Kennedy here. We are very honored to 
have Representative Kennedy with us, and, of course, I am 
keenly aware that I am sitting next to his father's seat here, 
and I am looking forward to having him back in January, as he 
promised.
    He has been a lawyer, he has been a prosecutor, he has been 
general counsel to police agencies. He was the assistant chief 
in New Haven, the chief of the New York MTA Metro North 
Department, the chief of the Stamford, Connecticut, Police 
Department. And then he came to the city of Providence. And I 
had been the U.S. Attorney for Rhode Island, I had been the 
Attorney General. I had had intense, as you can imagine, Mr. 
Chairman, relations with the Providence Police Department. And 
it would be fair and probably an understatement to describe the 
time as a troubled police department. Cars were unaccounted 
for. Kilo bricks of cocaine mysteriously disappeared, and then 
as mysteriously reappeared. Gold and jewelry from the evidence 
impound went missing. Promotion exams were provided in advance 
to favored members of the department. Civil rights and criminal 
prosecutions were as likely to be brought against members of 
the Providence Police Department as with members of the 
Providence Police Department, and politics ruled throughout the 
department. And it was a challenging atmosphere. I have many 
friends in the Providence Police Department who had the 
extraordinary patience and courage to hang in there through 
these very dark years. And Chief Esserman's arrival brought an 
end to that period of darkness. He demanded political 
independence and received it from a bright new reform Mayor, 
David Cicilline, and began the work of restoring the Providence 
Police Department.
    And I can tell you firsthand from my friends on the force 
who hung in there how relieved and gratified they are to be 
able to represent a department that they are now proud of. I 
can tell you that this is a man who sees his work as a police 
officer in the larger context of the social fabric in which the 
police operate, in the larger context of the human nature of 
the people with whom the police must deal, and in the larger 
context of the community structure that supports police law 
enforcement efforts. And he has been extremely successful in 
all those ways. And it is not just talk. It is real results.
    I have a list that shows some of the successes that have 
occurred in Providence in the last 5 years under his watch: 
murder rate down 39 percent; rape down 64 percent; robbery down 
30 percent; aggravated assault down 17 percent; burglary down 
21 percent; motor vehicle theft down 44 percent; larceny down 
28 percent; 14,000 major crimes in 2002; now under 10,000 in 
2007.
    So it is proof that when you go about police work in a 
sensible way, when you do it right, you get real results. And 
as I think all of our witnesses know, these accomplishments 
were done against a tide in which the numbers had been 
increasing across the country in the same period, in large part 
because of very bad policy choices made by the Bush 
administration to emphasize on homeland security with vast 
resources, a new, entirely unmanageable Federal Department, 
billions of dollars poured all over the country for improbable 
vehicles and things like that--all while hometown security was 
being sacrificed. And at least in Rhode Island, as important as 
homeland security is, the hometown security of 5,000 less 
crimes in our capital city will make a larger difference in the 
lives of real families than some small police department have a 
$250,000 radiation-proof astronaut recovery vehicle, or 
whatever it is that they have been getting.
    Cops on the streets and a sensible relationship with the 
community is the key, and Chief Esserman has produced real 
results with that strategy, and I am very proud to welcome him 
to this Committee.
    Chairman Leahy. Thank you, Senator Whitehouse. And I also 
understand that the Chief makes it a point to periodically walk 
a beat himself. I commend you for that.
    Dr. Alfred Blumstein is the J. Erik Jonsson Professor of 
Urban Systems and Operations Research, former Dean of the H. 
John Heinz III School of Public Policy and Management at 
Carnegie Mellon, award-winning researcher and author in the 
field of criminology. He was recently awarded the 2007 
Stockholm Prize in Criminology; served as Past President of the 
American Society of Criminology; served as Chairman of the 
Pennsylvania Commission on Crime and Delinquency, the State's 
criminal justice planning agency; served on the Pennsylvania 
Commission on Sentencing; a bachelor's degree in engineering 
and physics and a doctorate in operations research from 
Cornell.
    I can see why Senator Specter wanted to welcome you here. 
Please go ahead with your testimony. I am going to ask each one 
of you to speak, and then we are going to ask some questions.

  STATEMENT OF ALFRED BLUMSTEIN, PROFESSOR, H. JOHN HEINZ III 
    SCHOOL OF PUBLIC POLICY AND MANAGEMENT, CARNEGIE MELLON 
              UNIVERSITY, PITTSBURGH, PENNSYLVANIA

    Mr. Blumstein. Thank you very much, Senator Leahy. I am 
very honored to be before this Committee, which has had this 
wonderful record of trying to bring intelligence, rationality, 
thoughtfulness, and care to the whole issue of crime and 
criminal justice.
    What I want to do is focus first on some of the crime 
trends that we have seen and use that to highlight some of the 
lessons learned. In my testimony, I have a graph of murder and 
robbery rates in the United States, and I have some spare 
copies if anyone needs them. What we saw was a peak in about 
1980, which was very much of a demographic phenomenon. Crime 
rates came down rather sharply after that, and were going to 
continue coming down until crack made its appearance in the 
early 1980s. And then we saw major efforts at trying to deal 
with the crack problem by locking people up to a massive 
degree. Unfortunately, the market was resilient and recruited 
replacements for those people that were taken off the street.
    It is easy to think of the pathological rapist being taken 
off the street, and when that happens his crimes are also taken 
off the street with him. That's an incapacitation.
    When we take the drug seller off, a replacement can easily 
come in. The reason crime started going up in 1985 was that 
those replacements were young kids, and they had to carry guns, 
and they were far less restrained and far more dangerous than 
the people they replaced. And they were tightly networked with 
each other. So, one of the unintended consequences of that 
massive incarceration of crack dealers was the recruitment of 
replacements and rising crime, so that we had about a 25-
percent increase in violence between 1985 when those 
replacements started to come in until a peak in about 1993.
    Then it became evident that crack was pretty dangerous, 
unpleasant, undesirable, and so we saw a major turndown in new 
users of crack, and so we saw a major reduction in the 1990s of 
about over 40 percent in both murder and robbery, which are the 
two best measured crimes of violence and certainly the two most 
serious ones.
    In 2000, the rates flattened out. This flat trend in murder 
and robbery has persisted within a percent or two since 2000 
until 2007. Now, that does not mean that the entire Nation is 
flat, but it means that there were real national trends in 
demography and in crack markets. But what we are seeing now is 
individual city phenomena, much more local rather than 
responding to big national trends. Some cities have been going 
up, some have been coming down, some down and up, others up and 
down. So it is much more a local phenomenon, and that is where 
the help is needed at this point.
    There is a lot of learning going on in some cities. There 
is a lot of experimentation going on. And it is clear that 
there are opportunities to tap into the developing knowledge. 
And it strikes me that it would be very desirable for the 
Congress to encourage the Office of Justice Programs to build 
an evaluation center that will evaluate some of these trends 
and accompany that with a technical assistance function that 
will go out to the cities that are seeing spurts of violence.
    When we see the spurts, it is often one of two cases. One 
is new violence associated with drug markets, since drug 
markets typically resolve their disputes by violence because 
they cannot go to the courts. What we see is a major return 
from prison of some of the former drug dealers, and often they 
generate violence by their demand to regain their territory.
    A second major factor when we see a spurt is what Elijah 
Anderson talks about in his book ``Code of the Street,'' where 
he studied the inner-city areas. He finds that most people 
there are decent people, but then there are what he calls the 
``street people''. They have little prospect for the future, 
they see little opportunity for themselves; and all they see is 
the opportunity to engage in violence especially if someone 
disrespects them. If we could only do something to shape those 
folks up, opportunities abound there.
    What we need is a major focus on--in addition to this 
technical assistance, we have got to build some capability for 
the future through research, statistics, and development, and 
we have the opportunity to do that through the National 
Institute of Justice and the Bureau of Justice Statistics. That 
has been lying fallow for the past administration, and there is 
a real need for building some knowledge about how to control 
violence better, and to do that requires building their budget. 
They have under $50 million for the whole criminal justice 
system. Contrast that with the National Institute of Dental 
Research, which has almost $400 million to deal with dental 
issues.
    It is clear that we need a depoliticization of that 
research and statistics activity, and the Congress some years 
ago made the NIJ and BJS independent of the political 
environment in the Department of Justice. But in a 
surreptitious move in the PATRIOT Act, that independence was 
taken away. And so those agencies are no longer independent, 
and more responsive to political pressures. I would encourage 
the Congress to deal with the need to maintain that integrity 
and independence as their program develops.
    I would, furthermore, encourage the Congress in this era, 
when we are at a crime rate situation that is lower than we 
have seen since the 1960s, to consider more fundamental efforts 
like getting at child development and other such issues. I 
would encourage the Congress to take seriously the need for 
bringing the technical capability that is showing up in various 
places out to the smaller cities that are seeing spurts in 
violence.
    I thank you very much for the opportunity.
    [The prepared statement of Mr. Blumstein appears as a 
submission for the record.]
    Chairman Leahy. I apologize for keeping you on the clock, 
but we also have a bill of mine on the floor, if Senator 
Whitehouse would help while I go back and forth.
    Jeremy Travis is President of John Jay College of Criminal 
Justice at the City University of New York. He worked for more 
than three decades on criminal justice issues in positions with 
the Justice Department and the New York City Police Department, 
now in academia. He has been a leader in and out of Government 
in developing new approaches to criminal justice policy. He 
served from 1994 to 2000 as the Director of the National 
Institute of Justice at the Department of Justice. He promoted 
the Community-Oriented Policing Services, COPS program; Deputy 
Commissioner of Legal Matters for the New York Police 
Department; Chief Counsel for the Subcommittee on Criminal 
Justice in the House of Representatives, and many other things. 
Mr. Travis certainly knows his way around capital Hill.
    Good to have you here, sir.

  STATEMENT OF JEREMY TRAVIS, PRESIDENT, JOHN JAY COLLEGE OF 
 CRIMINAL JUSTICE, CITY UNIVERSITY OF NEW YORK, NEW YORK, NEW 
                              YORK

    Mr. Travis. Thank you very much, Senator, members of the 
Committee. I am honored as well to be invited to offer some 
thoughts this morning as the Committee undertakes this 
important task of looking at violence in America, and I am very 
honored to be on such a distinguished panel.
    In my time before the Committee, I would like to offer 
three perspectives on the current state of violence in America 
and then offer three recommendations that might inform 
discussions as we now look forward to a new administration and 
a new Congress in the coming year.
    As the Chairman said at the outset, even though we have 
every reason to be pleased with the reduction in violence in 
America over the past 15 years, we have no reason to be 
complacent. On the contrary, I would like to offer as our 
beginning perspective an international perspective, again, 
underscored by the Chairman, that if we compare our rates of 
violence to those in developed countries, we see that the rates 
of homicide in America are four times the rates of homicide in 
England and Wales, and in my testimony I have provided other 
comparisons. This gives us, I think, reason to work much harder 
to bring crime rates down, and particularly to focus on what is 
a distinguishing characteristic in America, which is the 
availability of illegal guns.
    As both the Chairman and Dr. Blumstein pointed out, we have 
a new phenomenon in the country, which is the second 
perspective, which is a divergence of trends at the local level 
from overall national trends. This has not been the case in the 
past, but we are seeing now in some cities violence rates are 
going up while in other cities they are going down quite 
dramatically.
    I offer two examples. If you look at the national data, 
between 2005 and 2006 homicide rates increased slightly, by 1.8 
percent; robbery rates increased slightly by 3 and 6 percent, 
respectively. But in those same years, we saw homicides 
decreasing by 25 percent in Dallas and 31 percent in Portland, 
yet increasing 23 percent in Philadelphia and 25 percent in 
Seattle. Similarly, robbery rates were essentially flat over 
those 2 years in New York and Los Angeles, but increased by 44 
percent and 63 percent in Milwaukee and Oakland.
    We do not have a good understanding of why it is that the 
local trends are diverging in the ways that they are, and we 
need to have that understanding in order to develop a sound 
policy.
    I want to focus, however, on a third perspective on 
violence in America, which is for me the most instructive for 
the future policy directions of this Committee and the country. 
Crime, as you know, is concentrated in urban America, 
particularly in the poorest urban neighborhoods, which are 
typically communities of color. In those communities, violence 
is a daily fact of life. I will cite two illustrations that I 
think make this point quite vividly.
    A group of colleagues of mine in Rochester, New York, under 
the prior administration did work on reducing violence in that 
city and carried out an analysis by Professor John Klofas of 
the Rochester Institute of Technology, which found that violent 
crime was concentrated in a core urban area that he called the 
``high-crime crescent.'' And my guess is we would find the same 
phenomenon in every urban jurisdiction.
    He then went on to calculate homicide rates in this part of 
Rochester and did the following analysis in my testimony 
comparing the overall homicide rate in the Nation, which was at 
the time 8 per 100,000. He looked within the age group that is 
of interest, 15- to 19-year-olds; it was triple that. He looked 
at men within that age group; it was quadruple that, it was 36 
per 100,000. He looked at African-American males in that age 
group in Rochester; it was 264 per 100,000. And for black males 
aged 15 to 19 in this high-crime crescent, the homicide rate 
was 520 per 100,000, or 65 times the national rate.
    So when talk about violence in America, we really do need 
to focus our attention on those communities where violence is 
most prevalent.
    A second example, this one from Cincinnati, this is an 
analysis conducted by my colleague, David Kennedy, and others 
at the University of Cincinnati. It looked at gang networks in 
Cincinnati and found that there were in that city 48 high-rate 
offending groups--you can call them ``drug crews,'' you can 
call them ``gangs,'' whatever--48 high-rate offending groups 
with 1,100 members total. And these individuals, these groups, 
were involved either as offenders and/or as victims in nearly 
three-quarters of the homicides in Cincinnati.
    So these studies from these two jurisdictions underscore 
for me the importance of drilling down deep to look at the 
phenomenon of violence as it is experienced at the street level 
and in communities around the country, and this for me is the 
central story of violence in America.
    Let me turn my attention then to looking toward the future 
and to make some recommendations, if I might, for activities 
that this Committee might carry out in the coming years.
    I have three categories of recommendations: one is for us 
to develop a much better understanding of the problem of 
violence in America; the second is to support proven 
interventions; and the third is to continue to test new ideas.
    If you look at other areas of social policy in America, we 
have, in fact, a very limited ability to track, analyze, and 
describe the phenomenon of violence. Our Uniform Crime Reports 
from the FBI are typically released months after the close of 
the year. The National Crime Victimization Survey, which 
struggles for appropriations from Congress each year, is a 
national survey that cannot capture local phenomena. And even 
the ADAM program that we established under the Clinton 
administration, which had a goal of looking at offender 
patterns in 75 cities, has been cut back from the 35 we 
established to 10 today. So we have a very anemic capability to 
understand the phenomenon that is of interest to this 
Committee.
    So my first recommendation is that the new Congress work 
with experts in the field to establish a robust way of 
understanding and do research on local crime trends, and I have 
some recommendations in my testimony.
    The second recommendation is to support proven 
interventions, and I am particularly impressed with the work of 
Professor David Kennedy, who is now at John Jay, on developing 
what was referred to by the Chairman as the Boston Ceasefire 
project and referred to also in the Chairman's opening 
statement by Operation--sorry, the High Point work that 
Reverend Summey will talk about. Here we have a proven 
intervention that has shown remarkable success. A couple 
examples. We do see reducing homicide in Indianapolis by a 
third; reducing homicide in neighborhoods in Chicago by 37 
percent; and the work underway now in Cincinnati reducing 
homicide associated with those violent groups I alluded to by 
about half.
    So we have every reason to believe that there are some 
interventions that have proven successful. Work is also now 
underway in Providence under the leadership of Colonel 
Esserman. And it is, in my view, the obligation of the Federal 
Government to help spread those successful strategies to 
communities that are experiencing high rates of violence. 
Again, in my testimony I have offered some ways to do that.
    The second suggestion--or, rather, the third suggestion 
here is for the Federal Government, as Dr. Blumstein 
recommended, to continue to be the research and development 
arm, the capacity that the Nation needs to test new ideas, 
evaluate them rigorously, to help communities implement those 
that are proven to be successful, not to waste taxpayer dollars 
on frivolous ideas--and there are far too many of them in our 
field--or pet projects that sometimes garner attention; rather, 
to be a serious, scientific enterprise on behalf of the country 
and to put the best minds of the country, whether in academia 
or in practice, to work trying to design and develop and test 
new approaches. If we do that, my expectation is that we can 
bring the rates of violence significantly lower than they are 
right now, and we could perhaps even approach those European 
levels that should be our aspiration.
    I thank you for your time and for your invitation.
    [The prepared statement of Mr. Travis appears as a 
submission for the record.]
    Senator Whitehouse. [Presiding.] Thank you very much, 
President Travis.
    Chairman Leahy has been called away to make a statement on 
the floor. As you can imagine, this is an unusually busy time. 
He will return.
    In the meantime, I think since I have already had the 
opportunity to give an introduction to Colonel Esserman, I will 
keep it short and simply call on him at this stage to share 
with us his testimony. Colonel Esserman, welcome.

    STATEMENT OF COLONEL DEAN M. ESSERMAN, CHIEF OF POLICE, 
     PROVIDENCE POLICE DEPARTMENT, PROVIDENCE, RHODE ISLAND

    Chief Esserman. Thank you to the Chairman and to Senator 
Whitehouse. I wish my wife and children were here. What you 
said, they would not believe it. Thank you.
    [Laughter.]
    Chief Esserman. I am grateful for the opportunity to 
testify before your Committee, and I sit here in front of you 
today as one of America's police chiefs. I have been the police 
chief of Providence for 5-1/2 years, our State's capital, the 
second largest city in New England and, unfortunately, one of 
the poorer cities in America--in fact, among the five poorest 
cities for children in America. And for too long we were also a 
city that saw too much violence, especially violence among our 
young, among our children; a city where too many children, our 
children, were being shot, too many were being arrested, and, 
too many were being buried.
    I am proud to say that the men and women of the Providence 
Police Department who I proudly represent today, known as 
``Providence's Finest,'' have started to make a difference, to 
turn the tide. For more than 5 years, crime has been going down 
in Providence. Led by an energetic and reform-minded Mayor, 
David Cicilline, the Providence Police Department has done more 
than transform its strategies and tactics. The department has 
undergone an extensive reengineering and has fundamentally 
changed the way it thinks about itself and its work.
    In the past, the department saw itself like many. Police 
were like armed referees who kept an authoritative distance--to 
the point of being almost anonymous--while trying to maintain 
order in a community that was not their own.
    In our reengineering efforts, we have adopted the lessons 
learned over the past two decades in American policing of what 
works.
    First, we have embraced and instituted community policing, 
decentralizing the department, and dividing the city into 
neighborhood police districts. Each district has a community-
donated neighborhood substation office and a commander 
accountable to the residents and to me.
    Second, the management tool adopted by the department to 
oversee our newly decentralized operations is weekly detective 
and command staff meetings driven by timely and accurate crime 
statistics--often known as the ``New York City Compstat 
Model.'' Accountability is emphasized by detective and patrol 
supervisors gathering weekly to review incidents, events, 
coordinate activities, and share critical information. 
Moreover, the department has embraced the important principles 
embodied in Professor Kelling's work, well known as ``Broken 
Windows.'' We focus our resources on serious violent crimes and 
neighborhood quality-of-life offenses with equal efforts.
    We take great pride in Providence in studying, when 
necessary modifying, and implementing the best practices from 
across our Nation. Let me outline a few of our partnerships and 
problem-solving strategies that we believe have made the 
difference.
    The department formed a gun task force that specializes in 
conducting both short- and long-term investigations into 
illegal firearms possession, use, and trafficking. The gun task 
force works closely with the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives. For every gun arrest in Providence, a 
Providence Police detective and an ATF agent together interview 
the suspect. The department also partnered on a Project Safe 
Neighborhood Initiative with the United States Attorney's 
Office and our Rhode Island Attorney General's office focusing 
on the coordination and Federal prosecution of all eligible gun 
cases.
    The department partnered with the Rhode Island Local 
Initiative Support Corporation, known as LISC, to transform 
distressed neighborhoods into vibrant and healthy places. We 
work with our local community development corporations 
encouraging homeownership and providing capital investment for 
real estate projects.
    The Department partnered with the Institute for the Study 
and Practice of Nonviolence. Pursuing an initiative first born 
in Boston in the 1990s, as the Chairman referred to, institute 
staff known as ``street workers'' are certified nonviolence 
trainers and veterans of life on the street--often former gang 
members, who teach the principles of nonviolence developed by 
Dr. Martin Luther King. Street workers intervene in potentially 
violent situations, offering mediation and conflict resolution 
services, and put themselves on the line in the neighborhoods 
every night.
    The department partnered with Family Service of Rhode 
Island, which is the oldest and largest nonprofit human service 
agency in Rhode Island, to replicate and enhance the Child 
Development-Community Policing Program of Police and Mental 
Health Clinicians, first pioneered by the Yale Child Study 
Center and the New Haven, Connecticut Police Department in 
1992. Every night social service clinicians ride with officers 
patrolling the streets of Providence and provide counseling and 
support services to those in immediate need.
    The department partnered with the State Department of 
Probation and Parole, where these officers are now assigned to 
my neighborhood substations. Their caseload is specific to the 
police districts and their geography. They share information 
about returning inmates and hold meet-and-greet orientation 
meetings in the neighborhood every month.
    And finally, in 2006, the National and Rhode Island Urban 
Leagues approached the department about working together to 
implement a Drug Market Intervention Initiative in the Lockwood 
Plaza neighborhood of Providence. The Drug Market Intervention 
Initiative is based on the initial work of John Jay Professor 
David Kennedy, as mentioned by President Travis, which we 
unabashedly copied and which my colleague from High Point, 
North Carolina will speak about in a moment. The success 
achieved in Lochwood can be attributed to the department's 
strong community partnerships and its ability to change its 
thought process, strategy, and structure.
    Many of the initiatives that I have outlined today, and 
others that time does not permit, were born from federally 
sponsored research and started with Federal grant funds from 
the National Institute of Justice, the Bureau of Justice 
Assistance, and, specifically, Project Safe Neighborhoods and 
Edward Byrne Memorial Justice Assistance Grant funds, which 
have recently been eliminated or dramatically reduced in the 
last Federal budget. I ask you today to restore these needed 
funds. They make a difference.
    In closing, I sit here today speaking for my community and 
my children, nearly 26,000 of them in Providence. I believe 
that any American police chief worth his salt would tell you 
that the best way to fight crime is to invest in our children 
and to protect our children, their families, and their 
neighborhoods. Too many of our children in our inner cities are 
poor and are frightened of the violence around them. They have 
come to know the face of violence all too intimately, all too 
personally. These are our children. They are American children. 
I believe our Nation must not just protect our children at the 
borders from the threat of foreign attacks, but also protect 
our children from the violence within the communities where we 
live.
    Thank you.
    [The prepared statement of Chief Esserman appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Colonel Esserman.
    Our next witness is Reverend James Summey, who has been the 
pastor of the English Road Baptist Church in High Point, North 
Carolina, since 1992. Reverend Summey has been an active 
community leader in High Point and a leading proponent of the 
community-based policing strategies that resulted in the 
elimination of a decades-old drug market that had long blighted 
his neighborhood. In 1999, Reverend Summey, along with several 
other local pastors, created West End Ministries, Incorporated, 
a nonprofit organization that provided a forum for community 
members to voice their concerns and suggestions for their 
neighborhood. Reverend Summey's efforts were critical to the 
development of the strategies and approaches that led to a 
dramatic reduction in violence and drug activity in High Point.
    Reverend Summey, welcome.

   STATEMENT OF REVEREND JAMES SUMMEY, ENGLISH ROAD BAPTIST 
               CHURCH, HIGH POINT, NORTH CAROLINA

    Reverend Summey. Thank you, Senator. When I came to High 
Point in 1992, coming to the West End community, I had some 
background information about this semi-infamous part of High 
Point. But it really was not until I got there that I realized 
the magnitude of the violence as well as just every sort of way 
that a neighborhood could be oppressed by a social condition 
that was existing in this very concentrated part of town of 
approximately 1,400 people.
    It was rather frustrating, to be quite honest, in regard to 
trying to even minister and work within the context socially of 
the area. The churches of the area were rather feeling 
oppressed as well.
    Making much of a long story a bit shorter for those who are 
listening today, it is very important to understand that the 
type of violence that we were seeing was very much related to 
the drug market that was going on. Every sort of vice that you 
could think of was happening right in front of the community's 
residents, and the residents, as I have already stated, felt so 
oppressed that they were really not free to move about. The 
sense of community and neighborhood was basically vanquished 
because of the existing condition of the community.
    Efforts to go into the community and talk with people 
sometimes led to even greater suspicion because they were 
afraid to talk about their neighbor or what was going on. It 
was not until some of the pastors, as Senator Whitehouse just 
mentioned, got together and we started addressing in our 
conversations the situation at hand. We formed a committee of 
people to talk to. From that we engaged the city of High Point 
with their Community Development Department. With that we 
hosted a first meeting in the West End where 117 people bravely 
came out after we went door to door and begged them to come and 
voice their concerns about the community. In so doing, we came 
up with three essentials of that community: Number one, the 
crime, the violence; number two, the condition of young people, 
youth walking the streets, no place to go, children under age, 
no parental guidance, and parents that were working late, and 
no one to look after the children after school; and, number 
three, just generally the community appearance of the West End.
    So we went to work on all of those areas. I will focus on 
the one that I was involved in with the crime.
    Getting feedback from the residents and finally working 
with the police more and more about how they went about doing 
their jobs was very comforting in a community conversation. 
However, the traditional ways of policing, the sweeps, the 
stings, whether it be about drugs or prostitution, or whatever, 
the shots still rang out. They could sweep the streets clean 
for a week or two, but only for it to startup again. The 
traditional methods that had been tried, and not so true maybe 
always, that had been going on for, you know, a couple of 
decades were not really working.
    It was not until 2004, January or February 2004, when I was 
introduced to David Kennedy, when he came to High Point and 
introduced this particular drug market intervention approach. 
The first time I heard it, I thought it made complete sense, 
and that is not a promotion or anything. It really did, mainly 
because a community can embrace it, because it is absolutely 
fair. It involves the community actually taking on their 
situation where the perpetrators of violence are actually given 
a chance to turn their life around because the community, for 
the first time, is able to confront them and say, ``You know, 
we do not approve of what you are doing. We are tired of living 
scared, and we want you to stop it. And if you cannot stop it, 
then we are supporting the police to prosecute you and to do 
all that they can to stop what you are doing. However, if you 
are willing to turn your lives around, we will do all that we 
can to assist you, walk with you, stand with you as you make 
this turnabout to reclaim a life that is positive.''
    So working together with many resources within the city of 
High Point, particularly an organization known as the High 
Point Community Against Violence, resources that we garnered 
together, working with, of course, our district attorney, the 
Middle District of North Carolina U.S. Attorney's Office, and, 
of course, the High Point Police Department, with an incredible 
partnership of community folks, as well as the police and 
prosecutors working together, we confronted these individuals 
from the West End community on May 18, 2004. And I can tell 
you, since May 18, 2004, it has been nearly night and day 
difference.
    The 10 years before May 18, 2004, the West End led the 
community of High Point in homicides and all sorts of gun and 
physical violence. Since May 18, 2004, we have not had one 
homicide, nearly no incidents of gun crime, because we have 
actually confronted the perpetrators of the violence, we have 
worked with them, continued to maintain what we said we would 
do by honesty and truthfulness. Community relations are at an 
all-time high. Social relations, race relations have all been 
improved because of this. Children now can walk the streets. 
They can walk to church. They can walk to school. They can go 
down to the local store, get a soda pop. It is a night and day 
incredible difference, and I am so grateful for the opportunity 
to share this with you.
    One thing I can say--and, Senator Whitehouse, you said it 
very well in your remarks earlier--is that, you know, I am not 
so sure this is the answer, but it is a major answer, and it 
should be implemented. I am very grateful to the Bureau of 
Justice Assistance for how they have been able to take this all 
around the country to introduce it to quadrants of the United 
States, to police and prosecutors over the past year and a 
half. And they have done a tremendous job of getting the word 
out about this particular method.
    But I would love to see the Senate and, of course, the 
Congress, all the factors of Government, to incorporate this 
method, support it, and allow this to be an option to all of 
the prosecutors and police chiefs of America and to back it up 
with your seals of approval because you guys have researched it 
very well. And to go ahead and reflect on what you said, this 
is certainly an answer to hometown security, Senator, and I 
agree 100 percent with what you said on that.
    So this is something that really works. I am on the ground 
with it. I know the before and the after, and I support it 
wholeheartedly, and I am so grateful for the High Point Police 
Department having the courage as well as the diligence to see 
this through. It has now revolutionized four different distinct 
areas of High Point, North Carolina, and all these residents in 
these four distinct areas are likewise enjoying some of the new 
senses of freedom that this particular method has brought.
    Thank you for listening to me.
    [The prepared statement of Reverend Summey appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Reverend Summey. It sounds 
like it took some courage on the part of the community.
    Reverend Summey. Absolutely.
    Chairman Leahy. As well as on the part of the police 
department, and it is really a very, very impressive story. It 
makes me think that when you look at crime fighting in our 
media, on television and the movies, you always see the same 
old paradigm reenacted, and it is law enforcement rushing to a 
crime after the fact. It is laying down the chalk lines. It is 
trying to figure out who did it, prosecuting them, and throwing 
them in jail--which is fine and necessary. But a story like you 
have told I think is equally capable of stirring the public 
because of that sense of community courage, and I hope that the 
media begins to see entertainment opportunities in stories like 
yours and not just in the stories that they focus on in the law 
enforcement context.
    Our next witness is Dr. George Kelling, a professor at the 
School of Criminal Justice at Rutgers University and a senior 
fellow at the Manhattan Institute. Professor Kelling is a 
leading scholar in criminal justice policy and helped develop 
the Broken Windows policy implemented in New York City in the 
1980s and 1990s. Professor Kelling has previously acted as 
research fellow and executive director of the Criminal Justice 
Policy and Management Program at the Kennedy School of 
Government at Harvard University. Professor Kelling began his 
career as a child care counselor and probation officer in 
Minnesota.
    Welcome, Professor Kelling.

 STATEMENT OF GEORGE L. KELLING, PROFESSOR, SCHOOL OF CRIMINAL 
     JUSTICE, RUTGERS NEWARK UNIVERSITY, NEWARK, NEW JERSEY

    Mr. Kelling. Thank you, and thank you for the opportunity 
to meet with you. Please understand my somewhat casual attire. 
I was invited to testify as I was on my way to a bicycling trip 
in my home State of Wisconsin and did not have a chance to 
return to my New Hampshire home for more appropriate clothing.
    Senator Whitehouse. You look fine.
    [Laughter.]
    Mr. Kelling. Nonetheless, during the last 5 years, I have 
worked on the ground in six cities: Newark, Los Angeles, 
Denver, Boston, Milwaukee, and Allentown. In Newark, homicide 
is down in comparison to 2007 by 40 percent; in Los Angeles, 9 
percent--a 2-year decline of 23 percent; Milwaukee, 30 percent; 
Boston, 13 percent; and Denver, 22 percent. Allentown's 
homicide rate has held steady, but our efforts have just begun 
there. In these cities I have worked with political and 
community leaders, citizens in neighborhoods, public and 
private agencies, and police officials ranging from chiefs to 
line police officers. Two common threads run through my 
experiences in each of these cities: first, the need for 
leadership; and, second, a shift in approach on the part of all 
concerned from reacting to crime after it happens to ``stopping 
the next crime.''
    The sources of leadership in addressing crime problems vary 
from community to community: In some locations it is political; 
in others, police; in others, both; in yet others, a mix of 
private and public agencies. These leaders understood that the 
reactive model of crime control had failed miserably and that 
they had to take political and organizational risks to field 
effective violence prevention.
    In the following, I will describe briefly what I consider 
to be the basic methods of crime prevention. Second, I will 
revisit the experience of New York City, a city enjoying crime 
declines that arguably are unparalleled in history and from 
which I believe there is much to learn. There is much I will 
not discuss that relates to crime prevention and reduction: the 
need for social, spiritual, recreational, and educational 
services; employment; family assistance and support; and 
others. My focus instead will be on five proximate measures 
that most communities could move to immediately. None are very 
``sexy'' or even new, but conceiving, implementing, and 
sustaining the programmatic forms they take can be complicated, 
depending on the agency, its resources, and the shape of the 
problems.
    One, increase the ``felt'' presence of capable guardians. 
Starting with police but moving on to prosecution, probation, 
and parole, other governmental agencies, and even the courts, 
we must increase the real presence of each in neighborhoods. 
For police this means getting out of their cars, walking, 
riding bicycles, meeting with citizens, and in other ways 
becoming an active neighborhood presence. In prosecution, it 
would mean having community prosecutors meet regularly with 
citizens in neighborhoods to understand their problems and 
devise solutions. I could give examples for other disciplines 
as well.
    Two, persuade people, especially the young, to behave. Law 
enforcement agencies and others involved in crime reduction 
efforts need to think beyond formal measures. Among the most 
fundamental and successful tactics is persuasion. We have heard 
about that from Reverend Summey alongside of us. Persuading 
people can range from simply ``talking to them'' to complicated 
programs that link active law enforcement with persuasive ways 
of communicating with young people on the verge of serious 
trouble. Both John Jay College Professor David Kennedy and 
University of Illinois Chicago Campus Professor Gary Slutkin 
have developed model programs to persuade people, especially 
violence-prone youths, to back off. Kennedy focuses on 
persuasive efforts by law enforcement officials themselves 
while Slutkin's program uses reformed young people, especially 
reformed gang members.
    Three, restore order. I am, of course, referring here to an 
idea that I helped develop: ``Broken Windows.'' Put simply, 
Broken Windows argues that for a community to be safe and 
prosperous, minimal levels of order must be established and 
maintained. It is no secret that Broken Windows has come under 
considerable academic criticism. Certainly, a Broken Windows 
approach--that is, aggressive ``paying attention'' to minor 
offenses and disorderly behavior--can be done inappropriately. 
Yet every city in which I have worked that has achieved 
substantial crime reduction has also paid careful attention to 
maintaining order--and with considerable success.
    Four, solve problems. Until recently, police and other 
criminal justice agencies have treated violent acts as 
independent incidents rather than symptoms of problems with 
both history and future. Right now the effects on communities 
have been disastrous. While we certainly want police and other 
agencies, especially prosecutors, to be concerned about 
individual cases and offenders, they need to be equally 
concerned about the community problems that such cases 
represent and create.
    Five, when formal measures are appropriate, enforce the law 
swiftly and fairly. I will not say much about this here. Let me 
summarize, however, by noting that a small population of 
offenders is busily nominating itself for incarceration by 
repeatedly committing both minor and serious offenses. For this 
group, we should have no reluctance to imprison them for 
extended periods of time. Unfortunately, however, there are at 
least two problems: first, in the absence of other preventive 
measures, incarceration has been overused; and, second, law 
enforcement has been applied so capriciously that it often 
fails to serve as a deterrent or to persuade the ``wannabees'' 
and other youths at the edge.
    The primary question facing us now is: Once we have 
initially reduced violence in a neighborhood, how do we sustain 
those gains? I think that close examination of what happened in 
New York will help us answer this question. Let me summarize 
what I believe really happened in New York City. I will skip 
forward to a very brief summary statement that is explained in 
more detail in the document that I have submitted.
    I would explain both the steepness and persistence of the 
crime decline in New York City as resulting from the fervent 
pursuit by a critical mass of public and private agencies 
operating out of a congruent understanding of the nature of the 
problems and their solutions. Their self-interests included 
economic, neighborhood safety, the ability to provide services, 
and others. When joined by the NYPD, with its common 
understanding and its additional and unique capacities, the 
critical mass reached a tipping point.
    Summarizing, we now have a lot of knowledge about ways to 
prevent crime that, if assiduously applied, reduce violence. 
For violence reduction to be sustained, however, a common 
theory of action must activate a critical mass of community 
agencies and resources. Without such a common theory of action, 
cities and communities will pick away here and there at the 
edges, never really reaching the tipping point that New York 
City has.
    Two final comments. Both have to do with the fact that the 
war on terror and related assumptions that terror and common 
crimes are essentially different problems have resulted in the 
virtual gutting of the National Institute of Justice, the 
Bureau of Justice Assistance, and the Community Oriented 
Policing Services, all in the name of terror prevention. These 
assumptions are not only faulty, they have been a disaster for 
localities. In fact, terrorists commit common crimes on their 
way toward terrorist acts and, in doing so, are vulnerable to 
action by local police.
    Second, ongoing support for local law enforcement efforts 
is crucial to their future success. Their accomplishments in 
reducing crime during the last 10 to 12 years is a direct 
result of the research conducted during the last 40 years. This 
is not just a pitch for resources for research and other types 
of support from an academic. Every chief with whom I have 
worked over the past years would make the same claim. If we are 
to maintain, and improve on, our gains of the recent past, the 
Federal Government must view ongoing crime control research and 
support as equally essential to that needed for dental or 
medical problems. Both crime problems and terrorism in many 
senses are local problems and must be resolved locally. Locals, 
however, are in need of support.
    Thank you.
    [The prepared statement of Mr. Kelling appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Dr. Kelling.
    As I hear the testimony of all five of you, who are 
extraordinarily talented and committed individuals, it all 
makes perfect sense. But I also have a little sense of sort of 
deja-vu. I was the U.S. Attorney in Rhode Island from 1994 to 
1998. David Kennedy worked with us in Rhode Island on crime 
prevention techniques. I then became the Attorney General. I 
opened community prosecutor offices. Throughout that period, we 
had the implementation of the COPS program and the advent of 
community policing theory. And here we are 8, 10, 12 years 
later, depending on which point you pick, and we are still 
having this discussion.
    My question to you is: When we seem to know this and when 
we seem to have known it for some time, what is it that is 
discouraging widespread adoption of these techniques by police 
chiefs and communities across the country? The payoff in terms 
of reduced crime, safer neighborhoods, improved property 
values, better sense of community and quality of life seems to 
be enough to provide a positive motivation to get there, and 
that suggests to me that there are some real institutional 
obstacles to these ideas that are now a decade old penetrating 
adequately and having their effect. What is your advice on that 
subject? Mr. Travis.
    Mr. Travis. I will start. I think each of the witnesses 
today has commented on the absence of Federal leadership, the 
decline in Federal financial support, the need for more 
research, the need for more assistance to be provided to local 
communities.
    It is true--and I certainly agree with your opening 
statement--that we know a lot more than we have known 
historically about what to do, and this is a time when, in 
addition to doing research on new interventions, when there is 
a crying need, in my view, to take proven interventions and 
replicate them nationally. David Kennedy, whom you mentioned, 
is just overwhelmed with interest from jurisdictions around the 
country to provide some form of assistance or consultation.
    So, at a minimum, that is what is needed, is to take 
interventions that have been successful and the Federal role, 
in my view, should be to help jurisdictions with some attention 
to the integrity of the introduction of those interventions, to 
work with those jurisdictions to take proven strategies.
    But the second point here is that this is much more than 
testing and implementing new ideas, and let me echo something 
that Professor Kelling said. What is needed here is to develop 
a culture of professionalism within the policing community so 
that this attention could be sustained over years. There are a 
number of communities that have tried this or tried that, it 
has been successful for a while, but it is not often that you 
have the type of sustained reduction in crime that we have seen 
in New York, that Colonel Esserman referred to, and that 
Reverend Summey referred to. That requires sustained managerial 
attention over time.
    So that is not a question of whether the intervention works 
or not. That is a question of whether there is political 
leadership and the ability, particularly within the police 
department, to sustain a regimen of professionalism and 
accountability.
    So we tend to move from new idea to new idea in our field 
too much, and there are a lot of--there has been a lot of 
research over the years, and now is the time to start, in my 
view, with providing Federal leadership and Federal resources 
to implementing proven interventions.
    Chief Esserman. I would echo the President. We did not stay 
the course. My wife says that my greatest and only strength is 
that I am boring and that I think about the same thing every 
day--which is crime.
    We got a lot of things right, and we did not stay the 
course. And I look at it through the eyes of an American police 
chief and a patriot who loves my Nation and is proud to be here 
today. But this giant of a Nation that I love and that I think 
we all love really does strike me to be a cyclops with but one 
eye. And when we pivot as a giant of a Nation to look at 
another problem, we forget what we were looking at. And we 
pivoted, and we just did not stay the course.
    And it is remarkable to me that, as I watch the nightly 
news, as I did when I was a child at my parents' legs watching 
it during the Vietnam War, and when I hear the body counts of 
our American soldiers, some of them police officers who are now 
serving in the national uniform overseas, and I hear about that 
body count, I do not hear about the American body count in the 
country. The American body count in our country is now 
approaching 50 murders every day. Sometimes that visits 
Providence or Boston or New York or High Point. But we are 
becoming a country with a murder rate that I find unacceptable. 
And this giant of a Nation knew what to do and started to do 
it. And I just think we did not stay the course.
    I think the communities of the Nation need help from 
Washington to stay focused and to stay the course.
    Senator Whitehouse. Dr. Blumstein?
    Mr. Blumstein. I think part of the issue you raise is very 
much one of inertia, that cities are doing what they have 
always done One of the important roles of getting external 
interventions--we have seen some excellent police chiefs. Dean 
Esserman's story was an excellent example of that, where 
innovative individuals, savvy individuals came in and brought 
new ideas and brought new approaches. But most places are 
merely continuing what they have been doing regardless.
    One of the important roles of Federal opportunities and 
interventions is that it provides the opportunity for 
innovation. It provides an opportunity for transfer of 
knowledge, coming into places that have just been doing the 
same thing. So that the notion of technical assistance, the 
notion of bringing innovative approaches that have been used in 
some places into new places is really an important opportunity. 
And the stimulus for that comes from the Federal funding for 
the new opportunities. It serves to introduce these places to 
innovation and recognition, and that makes the Federal 
Government an important stimulus for all of that to happen.
    Senator Whitehouse. Another area that I am interested in 
that I think, Dr. Kelling, you are--
    Mr. Kelling. I wonder if I could address the last issue.
    Senator Whitehouse. Sure.
    Mr. Kelling. Right now I am working closely with Chief Ed 
Flynn in Milwaukee, Wisconsin. One of the biggest problems he 
faces there is the 911 system, and that is, the rapid response 
to calls for service.
    All the evidence demonstrates that 911 systems are 
enormously expensive, are very low payoff, and have led to the 
de-policing of city streets; that is, police have to be in 
their cars waiting for the next call for service; that is, ``in 
service'' means riding around.
    He is systematically attempting to decrease the amount of 
emphasis on rapidly responding to calls for service. He does so 
at great risk. There is a conventional wisdom that 911 is the 
great protector of citizens when the research demonstrates that 
it is not. Somehow what we have to find are ways to take on the 
conventional wisdom about what works and what does not work, 
and then give the police the flexibility to try things.
    The trouble is the special efforts, which really are built 
on the research and the work that we have talked about today, 
are always special efforts rather than the core competence of a 
police department. Because if you go to virtually any city in 
the United States, riding around in cars and rapidly responding 
to calls for service is what police business is about. And yet 
we know it has virtually no--very little payoff. And we 
squander police resources catering to the conventional wisdom.
    That is why I talked about the idea of leaders taking great 
political and organizational leadership, because if something 
goes drastically wrong in a call that was delayed deliberately 
by police policy, Chief Flynn is going to be having to face 
very critical press and a lot of political resistance.
    Senator Whitehouse. The second question that I wanted to 
ask had to do with an observation that I could not help but 
note repeatedly during my years in law enforcement, and that 
is, we deploy vast resources on incarcerating people who are 
dangerous people and very often deserve to be incarcerated. I 
do not begrudge those resources. We also devote vast resources 
patrolling the general community and supporting the 911 system 
and being out there among the general population. But it 
strikes me that the highest-risk area is when you have those 
dangerous people from the incarceration system reemerging, 
reentering the general population. And in that area where they 
are coming out and overlapping, I think as you all know, that 
is a high-priority area if you just think of it in those terms. 
And yet the additional resources that we spend in that area are 
really negligible. We have struggled for years in Rhode Island 
to increase the probation presence. One of Chief Esserman's 
initiatives has been to collocate probation folks and his 
community police officers. But that is being done still in a 
context in which the reentry of folks from incarcerative 
environments back into the general population is still an area 
that gets very little attention and very little funding. 
Probation is probably the thinnest spread area of law 
enforcement, far more than police and 911 coverage. And yet 
there is where the danger is.
    As we have shown in Providence, in work that started even 
before Chief Esserman, the focus of those folks is in fairly 
specific areas. They just bombard, when they are released, a 
very few neighborhoods and zip codes, and it creates an 
enormous social problem for that often distressed existing 
neighborhood now to have to cope with this additional problem 
that is highly disproportionate to more affluent neighborhoods 
and, therefore, often overlooked.
    Do you agree that that is a problem? And if so, what do you 
see to be the best ways to focus on the reentry problem? 
President Travis.
    Mr. Travis. I will start off on that. This is a topic I 
have given a fair amount of thought to over the years, and we 
are aware, as the Chairman indicated in his opening statement, 
that we now have very high incarceration rates in America. Over 
the past 30 years, we have nearly quintupled the per capita 
incarceration rate in our country and now have the distinction 
of having the highest incarceration rate in the world.
    Putting aside for a moment a debate about whether that is a 
wise investment of resources or not--and I think we have far 
too many people in prison--we also have this reality that we 
have neglected at our peril, which is that, except for people 
who die in prison, everybody we put in prison comes home at 
some point. We do not have exile in our country. And so we now 
have 700,000 people coming out of our State and Federal prisons 
each year. It used to be 150,000 20 years ago. We have 9 to 12 
million people, depending on how you count them, coming out of 
our jails each year. And these individuals--and 90 percent of 
them men--are returning to a very small number of communities, 
and these are the same communities that we addressed before and 
I highlighted in my testimony that are also facing the burden 
of violent crime.
    There is an association, there is a connection between the 
phenomenon of reentry and violence in communities. Certainly it 
is felt by those communities that large numbers of their men 
are arrested, sent away for, on average now, close to 3 years, 
and return home disoriented, not ready to engage in work, often 
returning to habits that involved antisocial behavior and drug 
use and the like. And you are absolutely right, Senator, that 
the moment of release, the time when they come out of 
incarceration, according to the BJS data, presents the highest 
risk in terms of their returning to criminal behavior. And we 
do not assign our resources where that risk exists.
    So we have more people coming out of prison to a small 
number of neighborhoods. We have not increased the resources 
for the Government agencies that are supposed to be responsible 
for their safe return home, and they are returning home to 
highly violent communities and often reengaging in violence to 
settle scores or whatever.
    So part of a national antiviolence strategy, in my view, 
has to focus on this phenomenon, unprecedented in our history, 
of large numbers of men coming out of prison. And we have to 
start before they are released. We have to start while they are 
still in prison. Senator Specter talked about the need for 
programs and the like. We have also reduced our investment in 
drug treatment and education and the like.
    But the critical moment is exactly the moment that you 
highlighted, which is that moment when they leave the 
incarcerated status and return home, and that is the moment 
where we literally lose people.
    Senator Whitehouse. Dr. Blumstein?
    Mr. Blumstein. Let me say something about addiction. The 
1980s and 1990s was a period when we saw lots of addiction to 
drugs. Part of my concern is the degree to which our 
legislative bodies became addicted to being punitive. It worked 
very well in terms of the public's concern about crime, the 
public's concern about drugs, and the public would cheer as 
they saw more and more punitive legislation coming through. 
That gave rise to this major growth of incarceration, 
particularly of drug offenders, which are now the single 
largest crime type in prison.
    As I tried to indicate in my testimony, that does not 
necessarily stop any transactions because, as long as the 
demand is there, you are going to get replacements. And it 
turned out that the replacements were far more threatening than 
the people they replaced.
    So we have got all of these people in prison coming out, 
and the prison experience could be rehabilitative, but it could 
also be criminogenic. In part, they have greater trouble 
getting jobs when they come out, and we all agree that their 
prior criminal record eventually becomes stale information. But 
no one has developed yet the idea of when it is sufficiently 
stale, and that is where some of my research is targeted.
    As Jeremy Travis pointed out, getting them before they 
leave and as soon as they get back into the community is 
absolutely critical, and making sure we make major investments 
in getting them back functioning as legitimate members of the 
society. But we also ought to deal with the addiction of the 
legislative bodies to start rethinking some of the legislation 
that is now encased in statute that is now ready to be 
rethought. The circumstances are now quite a bit different from 
what than they were when the public was clamoring for more 
punitiveness.
    Senator Whitehouse. Mr. Chairman.
    Chairman Leahy. [Presiding.] Thank you.
    As you know, Doctor, we finally passed the Second Chance 
Act facing filibusters and everything else, which will give us 
a start on that. But it is also like we will send billions and 
billions of dollars to countries with the intent to stop their 
cocaine coming here and close a blind eye to any human rights 
violations in those countries and saying we are fighting a war 
on drugs. With the billions upon billions dollars we spent to 
do that, the price of cocaine has not come down on the street; 
the availability has not come down on the street. And we have 
not done anywhere near enough to stop the demand. We can stop 
any one country's source--let's assume we could--of cocaine and 
heroin, but if you do not stop the demand in the most affluent 
Nation on Earth, you are not going to stop--another country 
will take over.
    When we go from more of the macro into the micro, in 
reading some of the material for this, Reverend Summey, I was--
am I pronouncing that correctly? Is it ``Sum-me'' or ``Soo-
me''?
    Reverend Summey. ``Sum-me.''
    Chairman Leahy. Thank you. You should hear all the 
pronunciations of my name, especially if you travel in Ireland 
where it goes from ``Laff-ay,'' ``La-hay,'' to ``Lee-hee'' and 
what not. But I think about High Point, North Carolina, a 
community-based--could you kind of give just a thumbnail? What 
was it like just a few years ago in the neighborhood around 
your church where your parishioners had to go? And what is it 
like today? And if you had to pick the two or three things that 
helped the most, what were they?
    Reverend Summey. The empowerment of the community to know 
that they have a right to say that we do not want our community 
to be this way that was provided by a voice. You know, the 
church is doing some leadership, but mainly working with the 
city and us coming together and having a forum where people 
could talk. And they were really heard, and then a plan came 
up, as we have described, with David Kennedy's plans. And when 
they realized that they could actually confront the actual 
people that were pinpointed that were the perpetrators of 
violence and the drug markets, and they realized that that 
could make a difference in their own lives, that they could 
finally get it out; second, that the criminal forces of the 
community had been going along thinking that because no one 
said something, it was approval. When they realized there was 
no approval there, it absolutely stymied them. And that was a 
great deterrent already for the community to say, ``Stop it,'' 
because they were reading their passivity as approval.
    The result of that, of course, was the lack of violence. 
The drug market on the corners and the crack houses literally 
shut down overnight, and that is not an exaggeration. There was 
none. It stopped, and as well as the other, you know, 
subsidiary vices--prostitution--just plummeted after that 
because there was not that combination of driving the area 
looking for crack cocaine, looking for girls or whatever.
    And so the community, when they saw the streets settle down 
and they did not have to worry about the intimidation factors 
and the fear factors, that power of being able to express right 
and wrong just absolutely liberated the community.
    Chairman Leahy. By intimidation, give me an example. Say 
you are parents with a couple young kids in that area. What 
kind of intimidation were they facing?
    Reverend Summey. Well, for one thing, the street corners 
and sidewalks are pretty well taken over by the drug dealers 
and the prostitutes, and the parents did not want to let the 
kids out. They did not want to them walking down the street or 
riding their bicycle. Plus, I literally saw and experienced 
some of it from the drug dealers, that they would literally say 
something to you, ``What are you looking at? Why are you 
hanging around here?'' When doing some of the things I did as a 
minister in the community, I had personal threats made against 
me for even talking to some of the drug dealers and asking them 
to not be doing this. And the parents of the kids as well as 
some of the older residents of the city just felt fearful, and 
they stayed in their homes.
    Chairman Leahy. That is amazing. Growing up in a small town 
in Vermont, as I did, and as my kids did, you hop on your 
bicycle, go on down and visit your friends, go play baseball in 
the 3 weeks of summer that we have in Vermont. I will probably 
catch heck from the Chamber of Commerce on that. But you know 
what I am saying, just being able to go visit friends and do 
normal kids' things.
    Reverend Summey. That did not happen, sir. Right.
    Chairman Leahy. Mr. Travis, this is something that worked 
in North Carolina. Are there things we can do at the Federal 
level to help with these kind of community-based initiatives? I 
know what Senator Specter and I found out when we went to 
Rutland, Vermont. We could bring them certain things, but we 
saw our community was basically saying enough is enough. And a 
mayor who--some were saying, you know, if we talk about this, 
maybe it will give us a bad image. He said, ``We will talk 
about this, but it is not going to go away.'' And they finally 
did it. As Senator Specter said, we had a very large hall. We 
figured we would fill about a quarter of it. And it was 
overflowing. They had people out in the hallways. Everybody had 
a view. I mean, these are from parents, teachers, religious 
leaders, business leaders, police, ex-addicts. We had 
everybody.
    I do not want to do what Dr. Blumstein has referred to, 
that somehow we can do a one-size-fits-all, ``let's lock them 
all up'' kind of attitude. What do we do? What can we hand you 
from the Federal level?
    Mr. Travis. Well, I agree that it would be a mistake to 
continue to pursue the ``lock them up'' attitude. That is not 
going to get us out of the situation that we now face. But I 
think there is a real hunger around the country for national 
leadership here to help communities around the country take 
proven strategies, such as those that have been referenced in 
this hearing, and help those jurisdictions figure out what it 
takes to implement those strategies.
    Yes, perhaps over time we could all sort of learn from each 
other, but this is an area where we stand on the verge, in my 
view, of a tipping point, where the police executives are 
ready, community leaders are ready, local elected officials--
mayors and the like--are ready to implement some of these 
proven strategies. And what is required is a sustained effort 
over a number of years with appropriate Federal resources--and 
it is not a lot of money--to work with those communities to 
help them implement proven strategies and bring rates of 
violence down. It requires a very different way of doing 
business from what we have done historically. And the police 
profession over the years that I have observed it and been part 
of it is now led by some very thoughtful and innovative and, 
indeed, brave leaders who stand ready. And we have at the local 
level community leaders like Reverend Summey.
    And the national role here is to convene people, to help 
develop the technical assistance and training packages, to help 
provide on-the-ground analytical support, to bring the research 
community into the development and design and testing of these 
strategies. And it is not hard. If we had in the health arena 
proven strategies around the country that reduced breast cancer 
or any form of serious health issue by 40 to 50 to 60 percent, 
the professions delivering public health would be obligated to 
start implementing those interventions for their patients. We 
are at the point where, in my view, we could start to think 
about crime policy in the same way. But it is not going to 
happen naturally. It is going to require a Federal role and a 
different type of a Federal role.
    Chairman Leahy. But it is also going to require--you cannot 
have an idea and say, ``What is my city government doing? What 
is my Federal Government doing?'' I mean, they can put the 
tools there, but doesn't it kind of involve everybody?
    Mr. Travis. It definitely involves everybody. Crime policy 
is ultimately a State and local matter, and it is ultimately 
community matter. It requires families and--but there is a 
Federal role. The Federal role, in addition to the testing of 
ideas and doing the research--which I also advocate strongly. 
As the former Director of NIJ, I am here to say it is shameful 
what has happened to their budget. But here, when we are 
talking about what to do about violence and the great strides 
we have made over the past number of years in developing 
effective strategies, the Federal role is a leadership role in 
working with those communities to implement those interventions 
in a systematic way.
    Chairman Leahy. And to at least make seed money available 
for people who want to do that. I think about Chief Esserman 
goes to school, reads to children, they see that the police 
officer is not the bad guy. Walk a beat, get to know people on 
that. I think that probably makes it very difficult, Chief, for 
some of the officers in your department saying that they are 
unwilling to go out and walk a beat or read to kids or spend 
time with them if the Chief has been doing it.
    I think I was an effective prosecutor, and I worry, though, 
about people who have not been involved in law enforcement and 
think there are simplistic answers, simply lock them up and 
throw the key away; this kid committed a crime, throw him in 
that old jail. There have to be better ways. There have to be 
ways to reach out to them. There have to be ways to have places 
for kids to go after school. But there has to be a community 
involvement, and that is why I asked Reverend Summey the 
questions I did. There is that old expression, ``I have been 
down so long, it is beginning to look up.'' But if you have a 
community that feels they are helpless and cannot do anything 
and it is always going to be this way, then somebody has got to 
hit the spark.
    We are going to have to wrap up here, but, Dr. Kelling, you 
wanted to add something in there?
    Mr. Kelling. Well, I just wanted to second what Jeremy said 
but take exception to one word that he used regarding the 
Federal role, and that is ``leadership'' because I do not 
really think the Federal Government can provide leadership.
    If one analyzes all the ideas that have influenced and 
developed policing over the last 30 to 40 years, they have all 
developed locally. What we need is Federal support for local 
innovation and allow things to happen locally, because that is 
where all the excitement is. If you notice--
    Chairman Leahy. The COPS program developed nationally.
    Mr. Kelling. It developed nationally, but the techniques 
that they use, the ideas of community policing, the ideas of 
pulling a lever, David Kennedy's work, the ideas of Broken 
Windows, the ideas of problem solving all were developed by 
local police departments in collaboration with outsiders such 
as me and Jeremy, et cetera. So that the leadership, you see 
the leadership in terms of ideas coming locally in practice on 
the ground.
    The Federal role is important along all the lines that 
Jeremy described, but, again, I think we look for programmatic 
development on a local level and leadership on a local level.
    Chairman Leahy. Mr. Travis, did you want to respond to 
that? I am also going to place in the record a statement from 
Senator Biden and Senator Feingold, who have worked so hard on 
this.
    Go ahead, Mr. Travis.
    Mr. Travis. Given that we are in the Senate, I will accept 
that friendly amendment from my colleague from New Jersey. The 
leadership that I spoke about from the Federal Government is 
really to support local activities.
    I would be remiss, Mr. Chairman, if I did not take this 
opportunity as well to commend the Senate for the enactment of 
the Second Chance Act, which I did provide some--
    Chairman Leahy. It took a lot of work.
    Mr. Travis. We were all surprised, both that it took long 
and then ultimately that it got done. And I know that you are 
providing leadership on getting funding for the Second Chance 
Act as well, which will make it a reality. So that is an 
important type of Federal leadership.
    Chairman Leahy. Thank you.
    I talked when we started, my nearest neighbor in Vermont is 
a half a mile away. It is my son and his wife. and their little 
5-year-old will call up and say, ``I am coming to do a 
sleepover.'' And I had to ask, ``Well, this is OK with your 
parents?'' ``Mommy, Daddy, Grandpa says I can come to a 
sleepover.'' Or grandmother, if she is the one that answered. 
And she takes her teddy bear, and I was showing this to Senator 
Whitehouse in a picture, she just walks down this dirt road the 
half-mile herself, teddy bear under her arm. I hear Reverend 
Summey says there was a time when you would not let them go--
not even half a mile. You would not let them go half a block 
away like that.
    Not every part of the country is going to be totally safe, 
but as a country, we have got to get back to that where our 
children can do that and our children can think of that and our 
children can believe that there is going to be a place for them 
in this country. They are going to face enough challenges as 
they grow up.
    Again, I would strongly suggest--you can have wonderful 
police officers, but don't put all the burden on the police 
officers. It is not their responsibility. It is all our 
responsibility.
    And, with that, unless you have something else, Senator 
Whitehouse, we will stand in recess. We will keep the record 
open. The reason for that, you get a chance to see what you 
said, and if you think, ``I should have added...,'' please do. 
We will keep it open for that.
    Thank you all very, very much.
    [Whereupon, at 11:42 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T4972.001
    
    [GRAPHIC] [TIFF OMITTED] T4972.002
    
    [GRAPHIC] [TIFF OMITTED] T4972.003
    
    [GRAPHIC] [TIFF OMITTED] T4972.004
    
    [GRAPHIC] [TIFF OMITTED] T4972.005
    
    [GRAPHIC] [TIFF OMITTED] T4972.006
    
    [GRAPHIC] [TIFF OMITTED] T4972.007
    
    [GRAPHIC] [TIFF OMITTED] T4972.008
    
    [GRAPHIC] [TIFF OMITTED] T4972.009
    
    [GRAPHIC] [TIFF OMITTED] T4972.010
    
    [GRAPHIC] [TIFF OMITTED] T4972.011
    
    [GRAPHIC] [TIFF OMITTED] T4972.012
    
    [GRAPHIC] [TIFF OMITTED] T4972.013
    
    [GRAPHIC] [TIFF OMITTED] T4972.014
    
    [GRAPHIC] [TIFF OMITTED] T4972.015
    
    [GRAPHIC] [TIFF OMITTED] T4972.016
    
    [GRAPHIC] [TIFF OMITTED] T4972.017
    
    [GRAPHIC] [TIFF OMITTED] T4972.018
    
    [GRAPHIC] [TIFF OMITTED] T4972.019
    
    [GRAPHIC] [TIFF OMITTED] T4972.020
    
    [GRAPHIC] [TIFF OMITTED] T4972.021
    
    [GRAPHIC] [TIFF OMITTED] T4972.022
    
    [GRAPHIC] [TIFF OMITTED] T4972.023
    
    [GRAPHIC] [TIFF OMITTED] T4972.024
    
    [GRAPHIC] [TIFF OMITTED] T4972.025
    
    [GRAPHIC] [TIFF OMITTED] T4972.026
    
    [GRAPHIC] [TIFF OMITTED] T4972.027
    
    [GRAPHIC] [TIFF OMITTED] T4972.028
    
    [GRAPHIC] [TIFF OMITTED] T4972.029
    
    [GRAPHIC] [TIFF OMITTED] T4972.030
    
    [GRAPHIC] [TIFF OMITTED] T4972.031
    
    [GRAPHIC] [TIFF OMITTED] T4972.032
    
    [GRAPHIC] [TIFF OMITTED] T4972.033
    
    [GRAPHIC] [TIFF OMITTED] T4972.034
    
    [GRAPHIC] [TIFF OMITTED] T4972.035
    
    [GRAPHIC] [TIFF OMITTED] T4972.036
    
    [GRAPHIC] [TIFF OMITTED] T4972.037
    
    [GRAPHIC] [TIFF OMITTED] T4972.038
    
    [GRAPHIC] [TIFF OMITTED] T4972.039
    
    [GRAPHIC] [TIFF OMITTED] T4972.040
    
    [GRAPHIC] [TIFF OMITTED] T4972.041
    
    [GRAPHIC] [TIFF OMITTED] T4972.042
    
    [GRAPHIC] [TIFF OMITTED] T4972.043
    
    [GRAPHIC] [TIFF OMITTED] T4972.044
    
    [GRAPHIC] [TIFF OMITTED] T4972.045
    
    [GRAPHIC] [TIFF OMITTED] T4972.046
    
    [GRAPHIC] [TIFF OMITTED] T4972.047
    
    [GRAPHIC] [TIFF OMITTED] T4972.048
    
    [GRAPHIC] [TIFF OMITTED] T4972.049
    
    [GRAPHIC] [TIFF OMITTED] T4972.050
    
    [GRAPHIC] [TIFF OMITTED] T4972.051
    
    [GRAPHIC] [TIFF OMITTED] T4972.052
    
    [GRAPHIC] [TIFF OMITTED] T4972.053
    
    [GRAPHIC] [TIFF OMITTED] T4972.054
    
    [GRAPHIC] [TIFF OMITTED] T4972.055
    
    [GRAPHIC] [TIFF OMITTED] T4972.056
    
    [GRAPHIC] [TIFF OMITTED] T4972.057
    
    [GRAPHIC] [TIFF OMITTED] T4972.058
    
    [GRAPHIC] [TIFF OMITTED] T4972.059
    
    [GRAPHIC] [TIFF OMITTED] T4972.060
    
    [GRAPHIC] [TIFF OMITTED] T4972.061
    
    [GRAPHIC] [TIFF OMITTED] T4972.062
    
    [GRAPHIC] [TIFF OMITTED] T4972.063
    
    [GRAPHIC] [TIFF OMITTED] T4972.064
    
    [GRAPHIC] [TIFF OMITTED] T4972.065
    
    [GRAPHIC] [TIFF OMITTED] T4972.066
    
    [GRAPHIC] [TIFF OMITTED] T4972.067
    
    [GRAPHIC] [TIFF OMITTED] T4972.068
    
    [GRAPHIC] [TIFF OMITTED] T4972.069
    
    [GRAPHIC] [TIFF OMITTED] T4972.070
    
    [GRAPHIC] [TIFF OMITTED] T4972.071
    
    [GRAPHIC] [TIFF OMITTED] T4972.072
    
    [GRAPHIC] [TIFF OMITTED] T4972.073
    
    [GRAPHIC] [TIFF OMITTED] T4972.074
    
                                 <all>

</pre></body></html>
